                    Office of Inspector General
                   Corporation for National and
                            Community Service




     Semiannual Report
       to Congress
April 1, 2003 - September 30, 2003
   Fiscal Year 2003 Semiannual Report No. 2




  1201 New York Avenue, NW, Suite 830
          Washington, DC 20525
 Telephone (202) 606-5000, extension 390
        Facsimile (202) 565-2795
          Hotline (800) 452-8210
                                                                                                            Table Of Contents

Executive Summary ......................................................................................................1
      Audit Section ...................................................................................................................................... 1
      Investigations Section ....................................................................................................................... 1
      Evaluation Section ............................................................................................................................. 1
      Fiscal Year 2003 Performance Information ..................................................................................... 2

Audit Section .................................................................................................................4
      Financial Management ....................................................................................................................... 6
      Grant Management and Oversight.................................................................................................... 6
      State Commission Audits.................................................................................................................. 7
      Grants Awarded to Entities other than State Commissions .......................................................... 8
      Information Systems .......................................................................................................................... 8
      Audit Resolution................................................................................................................................. 9
      Management Decisions ..................................................................................................................... 9
      Notices of Final Action....................................................................................................................... 9

Investigations Section ................................................................................................10
      Summaries of Cases ........................................................................................................................ 12

Review Of Legislation And Regulations ....................................................................18
      The Strengthen AmeriCorps Program Act..................................................................................... 18
      The Call to Service Act..................................................................................................................... 18
      Appropriations.................................................................................................................................. 19

Tables ...........................................................................................................................20
      Inspector General Act Reporting Requirements........................................................................... 20

Fiscal Year 2003 Performance Information ...............................................................25
      Audit Performance Information ...................................................................................................... 26
      Investigations Performance Information ....................................................................................... 28
 Executive Summary
Audit Section
 During this reporting period, the Office of Inspector General (OIG) issued 10 audit reports.
 Summaries of audit reports issued from April 1, 2003, to September 30, 2003, are in the Audit
 Section.

 On May 7, 2003, the OIG issued the fiscal year 2002 management letter in conjunction with the
 Corporation’s Financial Statements Audit. The letter made 29 recommendations for improvements in
 financial management.

 During this period, the Office of Inspector General completed State commission audits for the
 following States: Wisconsin, Connecticut, Maine, Ohio, and Pennsylvania. These incurred-cost audits
 resulted in questioned costs of approximately $2.3 million, or 4.6 percent, of the $51.2 million in costs
 claimed. The incurred-cost audits also included recommendations to improve compliance and internal
 controls.

 The Office of Inspector General also completed an audit of Corporation funds awarded to
 Communities In Schools. The audit identified excess drawdowns of $67,099 and interest on these
 funds of $533, for which the grantee has reimbursed the Corporation.

 In response to the requirements of the Federal Information Security Management Act for fiscal year
 2003, the Office of Inspector General performed an independent evaluation of the Corporation’s
 information security program. This evaluation concluded that the Corporation generally has policies
 and procedures in place to safeguard its critical information systems and databases. However, the
 Corporation has shown little progress toward remediation of some of the issues identified in the 2002
 report required by the Government Information Security Reform Act, and did not adhere to Office of
 Management and Budget guidance on certain issues.


Investigations Section
 During this reporting period, the OIG received and processed 20 Hotline contacts, opened 26
 investigative actions, and closed 20 investigative actions. One matter was referred to the U.S.
 Department of Justice for prosecution, and six matters were referred to Corporation management for
 their action. Highlights of investigations closed during this period are presented in the Investigations
 Section.

 As part of our ongoing effort to prevent fraud, the OIG made two presentations during this reporting
 period to staff members of grantees, State commission staff, and Corporation staff. The presentations
 defined fraud, identified indicators of fraud, and discussed prevalent types of abuses. The Office of
 Inspector General investigative staff continued to visit AmeriCorps members at their service sites to
 discuss their community service experiences. This initiative increases the visibility of the OIG and
 verifies member information submitted to, and maintained by, the Corporation.


Evaluation Section
 During this reporting period, the Office of Inspector General laid the groundwork for the Evaluation
 Section with the guidance of a staff evaluator and an evaluator on detail from the Office of Inspector
 General of the Department of Health and Human Services. The Evaluation Section filled three
 program analyst positions with one transfer from the OIG Audit Section and two new external hires.



 April 1, 2003 – September 30, 2003                                                                     1
                                                                 Executive Summary
 The Section is currently reviewing and formalizing internal processes and procedures that will
 ensure its effective operation.

 In the next reporting cycle, the Evaluation Section will continue to formalize its operations. The
 Section will work closely with Corporation program officers to garner feedback in an effort to review
 and recommend improvements to Corporation operations. Some of the initial activities will include an
 assessment of existing Corporation resources and a formal review of Corporation programs and their
 functional relationships.


Fiscal Year 2003 Performance Information
 Included as the final section of this report is a summary of the Office of Inspector General’s
 accomplishments and performance measures in support of Office of Inspector General strategic
 goals.




 April 1, 2003 – September 30, 2003                                                                 2
                                                                  Executive Summary

About The Office Of Inspector General
This year marks the 25th anniversary of the Inspector General Act, which created offices of inspector
general in 12 Federal agencies. These offices were designed to improve the efficiency and
effectiveness of Federal operations and to detect and investigate fraud, waste, and abuse in Federal
programs.

In 1993, Congress created the Corporation for National and Community Service along with this Office
of Inspector General in the National and Community Service Trust Act. Like all Federal OIG
operations, our office is independent of the agency it oversees. Led by a presidential appointee, we
audit, investigate, and evaluate the Corporation’s programs, including AmeriCorps, Volunteers In
Service to America (VISTA), the National Civilian Community Corps, Learn and Serve America, and
the Senior Volunteer Corps.

The Office of Inspector General’s team of professional investigators, evaluators, and auditors
examine the Corporation’s operations. We also examine State community service programs that
receive and distribute the majority of Corporation funds, as well as local recipients of Federal funds.

Based on the results of our audits, investigations, and reviews, the OIG recommends Corporation
policies to promote economy and efficiency. We also strive to prevent and detect fraud and abuse of
taxpayer dollars that have been invested in Corporation programs.

This semiannual report, as required by the Inspector General Act of 1978, details our work for the
final six months of fiscal year 2003. The report is being transmitted to the Chief Executive Officer of
the Corporation, the Corporation Board of Directors, and Members of Congress. It will also be made
available to the public.

All of our work is conducted in strict adherence to the Privacy Act and the Freedom of Information
Act. Our efforts are often abetted by information supplied via the OIG Hotline (800-452-8210). The
Hotline allows Corporation employees, grantees, and program beneficiaries, among others, to report
concerns and suspected fraud.

For more information       on   the   OIG   and   its   work,   please   visit   our   Internet   website:
www.cncsig.gov.




April 1, 2003 – September 30, 2003                                                                      3
                               Audit Section
                  The Office of Inspector General Audit Section is
                  responsible for reviewing financial, administrative, and
                  programmatic operations of the Corporation for National
                  and Community Service. It carries out these
                  responsibilities by conducting the audit of the
                  Corporation’s annual financial statements, assessing the
                  Corporation’s management controls, auditing Corporation
                  operations, and auditing individual grants, contracts, and
                  cooperative agreements funded by the Corporation. All
                  OIG audit reports are referred to Corporation
                  management for action or information.



                                                         State Commission Audits
                                                                                                                    1.25
                                          18
                                          16                                       0.004
                                          14
                                          12
                             Dollars In   10                           0.61
                              Millions     8                                                        0.002      16.4
                                                      0.47                        14.9
                                          6
                                          4                         7.4                             7.1
                                          2        5.3
                                          0
                                                                                  ia
                                                 ne




                                                                                                  ut




                                                                                                                o
                                                                  in




                                                                                                             hi
                                                                                nn




                                                                                                ic
                                                               ns
                                               ai




                                                                                                            O
                                                                                               ct
                                                                              va
                                               M




                                                               co




                                                                                           ne
                                                                            sl
                                                             is




                                                                                          on
                                                                          nn
                                                         W




                                                                                         C
                                                                        Pe




                                                      Claimed Costs            Questioned Costs




April 1, 2003 – September 30, 2003                                                                                         4
                                                                            Audit Section

                                     Audit Reports Issued
                           April 1, 2003 – September 30, 2003
                                                                          Federal         Federal
  Report      Issue                                                       Dollars         Dollars
  Number       Date                     Report Name                      Questioned Unsupported
                                                                           (Dollars in thousands)
    03-02    05/07/03 Recommended Improvements to the                        N/A            N/A
                      Corporation's Internal Controls Fiscal Year 2002
                      - Management Letter

    03-04    07/25/03 Incurred-Cost Audit of Grants Awarded to the          $608        $565
                      Wisconsin National and Community Service
                      Board

    03-05    09/30/03 Incurred-Cost Audit of Grants Awarded to the         1,252        1,221
                      Ohio Community Service Council

    03-06    07/24/03 Incurred-Cost Audit of Grants Awarded to the          471          96
                      Maine Commission for Community Service

    03-07    08/04/03 Audit of Corporation for National and Community        5            0
                      Service Grants Awarded to PennSERVE: The
                      Governor's Office of Citizen Service

    03-08    09/12/03 Audit of Corporation for National and Community        2            0
                      Service Grants Awarded to Connecticut
                      Commission on National & Community Service

    03-16    04/25/03 Audit of Communities In Schools, Inc., Grant           0            0
                      Number 01SPHVA003

    03-18    06/20/03 Peer Review of the U.S. Nuclear Regulatory            N/A          N/A
                      Commission, Office of the Inspector General

    03-25    09/18/03 Independent Audit Report of Office of Inspector       N/A          N/A
                      General Review of Corporation for National and
                      Community Service Implementation of the
                      Federal Information Security Management Act
                      For Fiscal Year 2003

    03-26    09/18/03 Executive Summary for Office of Management            N/A          N/A
                      and Budget (OMB) Pertaining to Office of
                      Inspector General Review of Corporation for
                      National and Community Service Implementation
                      of the Federal Information Security Management
                      Act For Fiscal Year 2003


                        TOTAL                                              $2,338      $1,882
 N/A: Not applicable.




April 1, 2003 – September 30, 2003                                                              5
                                                                                              Audit Section
Financial Management
 Recommended Improvements to the Corporation’s Internal Controls Fiscal Year 2002 –
 Management Letter (Audit Report Number 03-02)
 The Government Corporation Control Act (31 U.S.C. §§ 9101-10) requires the OIG to annually audit
 the Corporation’s financial statements. The OIG contracted with KPMG LLP to audit the Corporation’s
 fiscal year 2002 statements. This audit, conducted in accordance with government auditing
 standards, resulted in an unqualified opinion on the Corporation’s Statement of Financial Position as
 of September 30, 2002, and the related Statements of Operations, Changes in Net Position, and
 Cash Flows for the year then ended.

 Although the audit resulted in an unqualified opinion, the auditors noted other matters involving the
 Corporation’s internal controls that did not rise to the level of a material weakness or reportable
 condition. These matters were reported in the management letter issued on May 7, 2003. The letter
 made 29 recommendations in seven subject areas: grants management, the National Service Trust,
 accounts receivable and other interest revenue, budgetary resources and net position, compliance
 with laws and regulations, human resources, and information technology.1


Grant Management and Oversight
 The Corporation awards grants to State and local governments, State commissions, institutions of
 higher education, and other not-for-profit organizations. Grantees are required to expend funds only
 for allowable costs and to provide periodic reports to the Corporation to demonstrate programmatic
 and financial compliance with the terms of their grant agreements. The Corporation is responsible for
 ensuring that grantees comply with applicable laws and regulations related to the administration of
 grant awards in the areas of Federal cash management, human resources, and information
 technology.

 The Office of Inspector General Audit Section conducts audits of Corporation grants and grantees to
 assess whether reported costs are allowable under Federal regulations and whether grantees are
 complying with the terms and conditions of their awards. Our reports on Corporation grants also
 include recommendations for correcting deficiencies. Typically, the recommendations call for
 grantees to reimburse questioned costs, establish and implement policies and procedures to prevent
 future instances of non-compliance, and improve internal controls. We also make recommendations
 1
     Recommended improvements to the Corporation’s internal controls:

 Grants Management – Improvements should be made in the oversight of OMB Circular A-133 reporting, grantee site visits,
 grant close-out procedures, and the grant approval process.

 National Service Trust – The process of reviewing Web-Based Reporting System reconciliation reports should be
 strengthened. Member end-of-term forms are not always processed in a timely manner. Certain members inappropriately
 received service awards and/or overpayment of education awards. The Corporation’s methodology for calculating the Service
 Award Liability estimate needs to be reviewed, and the database integrity of the System for Programs, Agreements, and
 National Service Participants should be systematically reviewed.

 Accounts Receivable and other Interest Revenue – The Corporation’s methodology for aging receivables needs to be
 reviewed.

 Budgetary Resources and Net Position – SF 133 reporting should be improved.

 Compliance with Laws and Regulations – Procedures should be established to monitor compliance with Section 129(b) of the
 National and Community Service Trust Act of 1993 (42 U.S.C. § 12581(b)).

 Human Resources – Automated controls for AmeriCorps*VISTA volunteer payments should be improved.

 Information Technology – Procedures should be established for the performance of risk assessments. The business continuity
 and contingency plan should be updated and tested. Specific polices, procedures, and controls should be established for
 transactions that flow across multiple systems.


 April 1, 2003 – September 30, 2003                                                                                      6
                                                                              Audit Section
 for more effective Corporation oversight and improvements in Corporation grants management
 operations.


State Commission Audits
 The Corporation awards grants and cooperative agreements to State commissions to assist national
 and community service programs in each State. The Corporation awards approximately three-
 quarters of its AmeriCorps*State and National funds to State commissions. In turn, the State
 commissions fund and are responsible for the oversight of the sub-grantees that execute the
 programs. Working for these sub-grantees, AmeriCorps members help their communities meet
 educational, human, environmental, and public safety needs.

 Incurred-Cost Audit of Grants Awarded to the Wisconsin National and Community Service
 Board (Audit Report Number 03-04)
 The Office of Inspector General retained Cotton & Company LLP to audit Corporation grants awarded
 to the Wisconsin National and Community Service Board from September 1, 1997, through March 31,
 2002. The Board had total claimed costs of $7,391,825, of which the auditors questioned $43,008 for
 allowability and $565,202 for lack of supporting documentation. Overall, questioned costs amounted
 to 8.23 percent of claimed costs. The report includes 11 recommendations to address weaknesses in
 compliance and internal controls, such as facilitating the timely submission of Financial Status
 Reports, improving program monitoring procedures, and maintaining supporting documentation for
 costs claimed. The auditors concluded that the Schedules of Claimed and Questioned Costs present
 fairly the costs claimed by the Board, except for the questioned and unsupported costs identified in
 the report, and the effects of any adjustments.

 Incurred-Cost Audit of Grants Awarded to the Ohio Community Service Council (Audit Report
 Number 03-05)
 The Office of Inspector General retained Cotton & Company LLP to audit Corporation grants awarded
 to the Ohio Community Service Council from October 1, 1998, through March 31, 2002. The Council
 had total claimed costs of $16,410,629, of which the auditors questioned $31,536 for allowability and
 $1,220,518 for lack of supporting documentation. Overall, questioned costs amounted to 7.63 percent
 of claimed costs. The report includes 11 recommendations that address weaknesses in the financial
 management system, a lack of segregation of duties, noncompliance with program requirements, the
 need to strengthen the Commission’s program monitoring procedures, and the failure to retain
 documentation supporting program costs. The audit report expresses a disclaimer of opinion on the
 Consolidated Schedule of Claimed and Questioned Costs because accounting records supporting the
 Commission’s claimed costs were not available for audit.

 Incurred-Cost Audit of Grants Awarded to the Maine Commission for Community Service
 (Audit Report Number 03-06)
 The Office of Inspector General retained Leon Snead & Company, P.C. to audit Corporation grants
 awarded to the Maine Commission for Community Service from October 1, 1998, through September
 30, 2001. The Commission had total claimed costs of $5,294,473, of which the auditors questioned
 $106,743 of drawdowns in excess of expenditures, and $363,759 because the claims lacked
 supporting documentation or the costs were ineligible. Overall, questioned costs amounted to 8.89
 percent of claimed costs. The audit report contains 22 recommendations on issues involving internal
 controls and compliance, such as facilitating the timely submission of Financial Status Reports,
 reconciling Financial Status Reports with actual expenditures and drawdowns, and maintaining
 supporting documentation for costs claimed. The auditors concluded that the Consolidated Schedule
 of Award Costs presents fairly the costs claimed by the Commission, except for the questioned and
 unsupported costs identified in the report, and the effects of any adjustments.




 April 1, 2003 – September 30, 2003                                                                 7
                                                                              Audit Section
 Audit of Corporation for National and Community Service Grants Awarded to PennSERVE:
 The Governor’s Office of Citizen Service (Audit Report Number 03-07)
 The Office of Inspector General retained Leonard G. Birnbaum and Company to audit Corporation
 grants awarded to PennSERVE: The Governor’s Office of Citizen Service from January 1, 1998,
 through December 31, 2001. PennSERVE had total claimed costs of $14,963,565, of which $4,666
 was questioned. Overall, questioned costs amounted to 0.03 percent of claimed costs. The report
 included four recommendations related to compliance and internal controls. The auditors concluded
 that the Consolidated Schedule of Award Costs presents fairly the costs claimed by PennSERVE,
 except for the questioned costs identified in the report.

 Audit of Corporation for National and Community Service Grants Awarded to Connecticut
 Commission on National & Community Service
 (Audit Report Number 03-08)
 The Office of Inspector General retained Leonard G. Birnbaum and Company to audit Corporation
 grants awarded to the Connecticut Commission on National & Community Service from October 1,
 1998, through December 31, 2001. The Commission had total claimed costs of $7,170,359, of which
 the auditors questioned $1,892. Overall, questioned costs amounted to 0.03 percent of claimed costs.
 The report included 13 recommendations to address weaknesses in compliance and internal controls,
 facilitating the timely submission of Financial Status Reports, and the importance of sub-recipients
 maintaining accurate and complete member records. The auditors concluded that the Consolidated
 Schedule of Award Costs presents fairly the costs claimed by the Connecticut Commission, except
 for the questioned costs identified in the report.


Grants Awarded to Entities other than State Commissions
 Audit of Communities In Schools, Inc. Grant Number 01SPHVA003 (Audit Report Number 03-
 16)
 The Office of Inspector General completed an audit of a grant awarded to Communities In Schools,
 Inc., a national organization where mentors from local communities help at-risk students. The audit’s
 objective was to review the status of corrective actions related to financial issues raised during an
 earlier Corporation site visit. The audit identified excess drawdowns of $67,099 and interest on these
 funds of $533, for which Communities in Schools has reimbursed the Corporation.


Information Systems
 Audit of Corporation for National and Community Service’s Implementation of the Federal
 Information Security Management Act for Fiscal Year 2003
 (Audit Report Numbers 03-25 & 03-26)
 The Office of Inspector General retained Richard S. Carson & Associates to conduct an audit of the
 Corporation’s information security program in accordance with the Federal Information Security
 Management Act of 2002 (FISMA). The objectives of the audit were to: test the effectiveness of
 information security policies, procedures, and practices of a representative subset of the agency’s
 information systems; assess compliance with FISMA and related information security policies,
 procedures, standards, and guidelines; and conduct follow-up assessment of agency progress in
 correcting weaknesses identified in prior Government Information Security Reform Act (GISRA)
 evaluations, including those weaknesses listed in the Fiscal Year 2002 Plan of Action and Milestones.
 The Corporation has taken a number of steps during the past year to enhance its security program
 and address issues identified in the Fiscal Year 2002 GISRA report. Notwithstanding the
 improvements noted during the audit, some areas showed little progress toward remediation and/or
 did not adhere to Office of Management and Budget Circular A-130 guidance. These problems are
 identified in the FISMA report, along with recommendations to strengthen the information security
 program.



 April 1, 2003 – September 30, 2003                                                                  8
                                                                                Audit Section
Audit Resolution
 The Corporation’s audit resolution process essentially consists of four steps. After the Office of
 Inspector General (OIG) issues an audit report, the Corporation normally issues a Proposed
 Management Decision (PMD) responding to the report’s findings and recommendations, generally
 within five months of the report’s issuance. If the OIG disagrees with management’s proposed
 corrective actions, the OIG submits written comments to the Corporation within 30 days of receiving
 the PMD. Not more than six months after an audit report is issued, the audit resolution policy requires
 that the Chief Financial Officer respond to the audit with a Management Decision describing approved
 corrective actions and a timetable for implementation. Final action on corrective measures must be
 completed within 12 months of the audit report’s publication. Corporation management subsequently
 transmits a Notification of Final Action when all corrective measures have been completed and the
 responsible management official has verified the actions. At this point, management considers the
 audit to be fully resolved.


Management Decisions
 During this reporting period, the Corporation notified the Office of Inspector General of three
 proposed management decisions:

         Audit Report 02-03, Audit of Corporation for National and Community Service Grant Number
         97LHEDC001 to American Association of Community Colleges, Washington D.C.

         Audit Report 02-16, Audit of Corporation for National and Community Service Grants
         Awarded to Alaska State Community Service Commission

         Audit Report 03-07, Audit of Corporation for National and Community Service Grants
         Awarded to PennSERVE: The Governor’s Office of Citizen Service


Notices of Final Action
 A Notice of Final Action is a Corporation management report indicating that it has completed
 corrective actions. During this reporting period, the Office of Inspector General received the following
 Notices of Final Action:

         Audit Report 99-09, Audit of Corporation for National and Community Service Contract No.
         95-743-1009 with Biospherics, Inc.

         Audit Report 00-21, Audit of Corporation for National and Community Service Contract No.
         95-743-1005 with Outsourced Administrative Systems, Inc.




 April 1, 2003 – September 30, 2003                                                                    9
                     Investigations Section
                  The Office of Inspector General Investigations Section is
                  responsible for the detection and investigation of fraud,
                  waste, and abuse in Corporation for National and
                  Community Service programs and operations. The
                  Investigations Section carries out these responsibilities by
                  investigating allegations of a variety of criminal activities
                  involving the Corporation’s employees, contractors, and
                  grant recipients. Criminal investigations are presented to
                  the U.S. Attorney or, in some cases, the local prosecutor
                  for criminal prosecution and monetary recovery. Some
                  investigative reports are referred to Corporation
                  management for administrative action or information.

                                      Investigative Recoveries


                    $1,400,000                    $1,206,057
                    $1,200,000
                    $1,000,000
                      $800,000
                      $600,000
                                      $308,939
                      $400,000 $142,634                   $123,988
                                             $55,961
                      $200,000
                            $0
                                1999 2000 2001 2002 2003




April 1, 2003 – September 30, 2003                                          10
                                                                          Investigations Section


                                              Summary Of Cases

        Opened and Closed

        Number of Cases Open at Beginning of Reporting Period                                             23

        Number of New Cases Opened this Reporting Period                                                  26

        Number of Cases Closed this Period With Significant Findings                                      9

        Number of Cases Closed this Period With No Significant Findings                                   11

        Total Cases Closed this Reporting Period                                                          20

        Number of Cases Open at End of Reporting Period                                                   29

        Referred

        Number of Cases Referred for Prosecution this Reporting Period                                    1

        Number of Cases Accepted for Prosecution this Reporting Period                                    22

        Number of Cases Declined for Prosecution this Reporting Period                                    0

        Number of Cases Pending Prosecutorial Review                                                      0

        Number of Cases Pending Adjudication                                                              12

        Recommendations to Management

        Number of Investigative Recommendations Referred to Management                                    143




2
 This includes one case referred for prosecution during a previous reporting period.
3
 These recommendations derive from five different investigative matters, three of which were recommendations to consider
debarring individuals. The remaining recommendations were included in the National Service Trust Report and the Alternative
Personnel System Report.

April 1, 2003 – September 30, 2003                                                                                     11
                                                                              Investigations Section

Summaries of Cases
 At the beginning of this reporting period, there were 23 investigative actions pending. During this
 reporting period, 26 investigative actions were launched and 20 were closed. Twenty-nine
 investigative actions were pending at the end of the period.


 Cases Closed This Period
 Reported Violation of the Anti-Deficiency Act (OIG Report of Investigation 03-007)
 The Office of Inspector General completed an investigation of the Corporation’s management and
 oversight of the National Service Trust (Trust). The inquiry was initiated following a request from
 Senator Christopher S. Bond. The inquiry focused on whether the Corporation violated the Anti-
 Deficiency Act (31 U.S.C. § 1341), which prohibits a Federal employee from making expenditures or
 obligations that exceed the amount appropriated by Congress.

 The Office of Inspector General concluded that the Corporation violated the Anti-Deficiency Act by
 enrolling more AmeriCorps members than could be supported by funds in the Trust. Based on
 financial data provided by the Corporation, the violation first occurred in the year 2000.4 The OIG
 found that the violation continued until President George W. Bush signed the Strengthen AmeriCorps
 Program Act on July 3, 2003.

 The inquiry determined that the violation was caused by inadequate oversight, flawed membership
 and financial reporting systems, job responsibilities that were either not well-defined or adhered to,
 and a lack of effective communication among Corporation managers. The Office of Inspector General
 made several recommendations to the Corporation aimed toward improving its management of the
 Trust.

 The report, in its entirety, can be viewed on our website: http://www.cncsig.gov/trust_report.htm.

 Review of the Alternative Personnel System (OIG Report of Investigation 02-039)
 The Office of Inspector General completed a review of the Corporation’s Alternative Personnel
 System (APS). The review was requested by Congressman Albert R. Wynn, the Chairman of the
 Corporation’s Board of Directors, and the Corporation’s Chief Executive Officer in response to
 concerns expressed by a number of employees and managers about the effectiveness and fairness
 of the APS.

 The legislation that created the Corporation authorized the Chief Executive Officer to establish an
 APS that was exempt from many of the provisions governing Federal employees under Title 5 of the
 United States Code and other statutes. The purpose of the OIG’s review was to determine if the
 Corporation’s personnel policies, procedures, and practices were meeting the Corporation’s need to
 maintain adequate staffing. The review examined whether the policies facilitated the use of term
 appointments, performance bonuses, salary increases, hiring actions, and promotions in an equitable
 manner.

 As a result of this review, the OIG made several recommendations that sought to make the APS a
 more valuable tool for the effective operation of the Corporation.




 4
  After the Office of Inspector General issued the Trust Report, the Corporation provided additional financial data to the Office
 of Inspector General indicating that the violation of the Anti-Deficiency Act first occurred in the year 2002.

 April 1, 2003 – September 30, 2003                                                                                          12
                                                               Investigations Section
Security Risk Assessment (OIG Report of Investigation 03-013)
The Office of Inspector General conducted a security review of vulnerabilities of the Corporation’s
Washington, D.C., headquarters. The review determined that the Corporation needed to address
multiple security vulnerabilities. The OIG provided Corporation management with several
recommendations to enhance security, many of which the Corporation has already implemented.

Former AmeriCorps Member Sentenced for Falsifying Documents
(OIG Report of Investigation 01-033)
The Office of Inspector General completed an investigation opened after Corporation management
reported that an AmeriCorps member had fraudulently obtained an education award. The
investigation revealed that the former member submitted falsified AmeriCorps documents that
allowed him to receive $2,362.50 of his education award, rather than having the payment sent to an
educational or lending institution, as required by the terms of the member agreement. The former
AmeriCorps member was interviewed and admitted to preparing the fraudulent documents. He pled
guilty to making a false statement, a violation of 18 U.S.C. § 1001, in the U.S. District Court, Southern
District of New York. He was sentenced to make restitution of $2,362.50, pay a court assessment of
$100, and placed on supervised probation for two years. The Office of Inspector General also
recommended that Corporation management consider debarring the former AmeriCorps member
from participation in Federal procurement and non-procurement programs. The Corporation followed
this recommendation and debarred the former member for a period of two years.

Childcare Fraud (OIG Report of Investigation 01-039)
The Office of Inspector General completed an investigation reported by a Corporation grant recipient
that an AmeriCorps member was fraudulently receiving AmeriCorps*Care subsidies. The
investigation found that an AmeriCorps member enrolled his two children into the AmeriCorps*Care
program. After about a week in the program, the member produced a letter on fraudulent
AmeriCorps*Care letterhead, informing the childcare provider that the member’s spouse would be
providing childcare for one of their children. The letter instructed the childcare provider to continue
receiving both children’s AmeriCorps*Care checks, and pay a portion of the childcare subsidy check
to the AmeriCorps member for the child no longer in the childcare provider’s care. This allowed the
AmeriCorps member to receive $2,200 in AmeriCorps*Care subsidies to which the member was not
entitled. The local prosecutor accepted this matter for prosecution after it was declined by the U.S.
Department of Justice. The member pled guilty to disorderly conduct, paid restitution in the amount of
$2,200, and was sentenced to 15 days of incarceration.

Theft and Forgery of VISTA Stipend Check (OIG Report of Investigation 02-032)
The Office of Inspector General completed an investigation reported by a Corporation State Office
that an AmeriCorps*VISTA member lost her government-issued stipend check in the amount of
$370.99. The check was subsequently forged and negotiated. The investigation discovered that an
individual found the check, forged the signature of the payee, and cashed the check at a convenience
store, utilizing another individual’s check card. The local prosecutor accepted this matter for
prosecution after it was declined by the U.S. Department of Justice. The individual pled guilty to one
count of theft. The individual was sentenced to 18 months of supervised probation, 80 hours of
community service, required to pay court costs, and make full restitution.

Fraudulent AmeriCorps Enrollment (OIG Report of Investigation 03-019)
The Office of Inspector General completed an investigation reported by a program director that a
former AmeriCorps member falsely portrayed herself as a U.S. citizen. The investigation found that
the program did not obtain proper proof of citizenship prior to enrolling the AmeriCorps member. The
former member completed her service and earned an education award, which was later rescinded.
The program has reimbursed the State commission the amount of the living stipend paid to the former
member. The Office of Inspector General provided information on the former member to the Bureau
of Citizenship and Immigration Services after it appeared that the member may not be legally residing
in the United States.




April 1, 2003 – September 30, 2003                                                                   13
                                                              Investigations Section
AmeriCorps Member Submits Fraudulent Time Sheets
(OIG Report of Investigation 03-028)
The Office of Inspector General completed an investigation into allegations reported by a State
commission that a former AmeriCorps member falsified her time sheets. Before the former member
received credit for these service hours, the investigation discovered that the time sheets were
fraudulent. The former member also admitted to falsifying her time sheets. Since there was no
monetary loss, criminal prosecution was not pursued, but the OIG recommended that Corporation
management consider debarring the former member.

Allegations of Inappropriate Conduct (OIG Report of Investigation 03-027)
The Office of Inspector General completed an investigation reported by a Corporation union
representative that inappropriate conduct occurred at an AmeriCorps social event. The investigation
found that no AmeriCorps members engaged in inappropriate conduct. However, two members of the
program staff did engage in inappropriate conduct and will be disciplined by program officials.

Closure of the Corporation State Office in New York City
(OIG Report of Investigation 03-021)
The Office of Inspector General completed an investigation into allegations reported by a former
Corporation employee that the reasons given for closing the Corporation office in New York City were
invalid. The investigation found that the office was closed as a result of a Corporation management
decision to consolidate the New York City office into the Albany, New York office. This action resulted
in an overall cost savings to the Corporation.

Reported Use and Trafficking of Illegal Drugs (OIG Report of Investigation 03-020)
The Office of Inspector General completed an investigation into allegations reported by a grant
recipient that it had found references to the use and trafficking of illegal drugs in e-mail messages
between AmeriCorps members. The investigation found that the grant recipient had conducted an
internal administrative inquiry into the matter before notifying law enforcement. Four members
voluntarily resigned and five were terminated by the grant recipient for improper use of the program’s
computer equipment. The fact that the internal inquiry was conducted by the program staff before law
enforcement officials were notified prevented a thorough criminal investigation. This issue was noted
in a letter to Corporation management by the OIG. As a result, Corporation management reminded all
grant recipients in writing to notify the OIG when they suspect a crime may have been committed.

Counterfeit AmeriCorps*Care Checks (OIG Report of Investigation 00-003)
The Office of Inspector General completed an investigation into allegations reported by a grant
recipient that someone had been producing and negotiating counterfeit AmeriCorps*Care checks.
The investigation found that a former AmeriCorps member and others had used a personal computer
to counterfeit checks totaling $16,352. After the OIG discovered that this group of individuals
counterfeited checks from a number of different organizations, the OIG, along with the St. Petersburg
Florida Police Department, turned this investigation over to the U.S. Secret Service as the lead
investigative agency. Local law enforcement officials arrested the individuals for counterfeiting
offenses unrelated to the Corporation. Initially, the Department of Justice accepted the Secret
Service's investigation for prosecution but eventually declined to pursue this matter in favor of local
prosecution. However, the Florida Criminal Code's statute of limitations for these offenses prevented
local authorities from pursuing prosecution.

Travel Card Review (OIG Report of Investigation 03-004)
The Office of Inspector General completed a follow up review of Corporation employees’ use of the
Government travel card. The review included 398 employees and $1,134,530.50 in travel expenses.
This review found no evidence of travel card misuse by Corporation employees.




April 1, 2003 – September 30, 2003                                                                 14
                                                                Investigations Section
Cases Open at End of Period
False Claims Violation (OIG Report of Investigation 01-095)
The Office of Inspector General is investigating an AmeriCorps grant recipient after a member of
Corporation management reported that the grant recipient used Corporation funds for purposes other
than in support of the grant. The recipient is alleged to have knowingly withdrawn Corporation grant
funds in excess of grant support needs to keep the program operating. The U.S. Department of
Justice’s Affirmative Civil Enforcement Coordinator accepted this investigation for prosecution as a
civil false claims matter. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.

VISTA Stipend Checks Theft (OIG Report of Investigation 03-016)
The Office of Inspector General is investigating an allegation reported by Corporation management
that an unknown person intercepted, forged, and cashed the AmeriCorps*VISTA stipend payment
checks of a former VISTA member over a six-month period. A suspect was identified and the
information was provided to the Federal Bureau of Investigation, which has assumed responsibility as
the lead investigative agency. The investigation is ongoing and final results will be reported in a
subsequent semiannual report.

Embezzlement of AmeriCorps Funds (OIG Report of Investigation 03-009)
The Office of Inspector General is investigating an allegation reported by Corporation management
that a former program director of an AmeriCorps grant recipient embezzled AmeriCorps funds.
Evidence indicates that the former director embezzled a significant amount of program funds, a
portion of which were AmeriCorps grant funds. Evidence also indicates that the former director
utilized AmeriCorps members to perform services outside the scope of the grant at the former
director’s private businesses and organizations. AmeriCorps members also wrongly received credit
toward their education awards for this service. The U.S. Department of Justice has accepted this
investigation for criminal prosecution. The investigation is ongoing and final results will be reported in
a subsequent semiannual report.

Childcare Fraud (OIG Report of Investigation 02-008)
The Office of Inspector General is investigating an allegation reported by a grant recipient that a
former AmeriCorps member and her childcare providers submitted false AmeriCorps*Care
applications, while knowing that the providers would not be furnishing the services as claimed. The
investigation revealed evidence that the former member and the childcare providers submitted false
monthly attendance reports. This allowed the childcare providers to receive thousands of dollars in
AmeriCorps*Care subsidies, which they shared with the former member. Further investigation
disclosed evidence that the former member received State childcare subsidies during the same
period by conspiring with two different childcare providers to defraud the State system in the same
manner. These childcare providers received a significant amount of Federal funds as part of their
childcare subsidies, which they also shared with the former member.

All the childcare providers admitted to their involvement in the fraud and conspiracy. The former
member admitted to some involvement. In addition, a review of the former member’s time sheets
revealed that, although the former member was certified as eligible to receive an education award,
only a small portion of the former member’s service hours were documented. Of these hours, 185
were on time sheets that bore the forged signature of the former member’s supervisor. The U.S.
Department of Justice accepted this investigation and is pursuing criminal prosecution. The
investigation is ongoing and final results will be reported in a subsequent semiannual report.

Personal Use of AmeriCorps Program Credit Card
(OIG Report of Investigation 03-014)
The Office of Inspector General is investigating an allegation reported by a State commission that a
former AmeriCorps program director used the AmeriCorps program’s credit card for personal use.
Evidence indicates that the former director used the card to obtain cash advances and to purchase
personal items. The U.S. Department of Justice, citing the small amount of money involved, declined
to accept this investigation for prosecution. Local law enforcement and the local prosecutor charged

April 1, 2003 – September 30, 2003                                                                    15
                                                                 Investigations Section
the former director with felony theft, and trial is pending. The investigation is ongoing and final results
will be reported in a subsequent semiannual report.

Personal Use of AmeriCorps Program Credit Card and Embezzlement
(OIG Report of Investigation 03-015)
The Office of Inspector General is investigating an allegation reported by Corporation management
that a former associate director of an AmeriCorps program misused the program’s credit card.
Evidence indicates that the former director used the card for personal use and embezzled a
significant amount of program funds. The U.S. Department of Justice has accepted this investigation
and is pursuing a criminal prosecution. Thus far, the former associate director has been indicted. The
investigation is ongoing and final results will be reported in a subsequent semiannual report.

Improper Expenditures of Grant Funds (OIG Report of Investigation 02-013)
The Office of Inspector General is investigating an allegation reported by a State commission that a
State grant recipient made improper expenditures of grant funds. The OIG investigation disclosed
evidence that a former grant administrator and a former executive director prepared, and caused to
be submitted, a Periodic Expense Report falsely claiming that a grant recipient paid for a number of
laptop computers and cellular telephones. The Office of Inspector General also determined that a
third staff member, a former administrative director, diverted a significant amount of AmeriCorps
funds to pay the recipient’s staff payroll. These funds should not have been used for payroll since
they were supposedly a reimbursement for a computer purchase, which appears to have never
occurred. The U.S. Department of Justice initially accepted this investigation and was pursuing
criminal prosecution, but has since declined to prosecute based on the low dollar amount involved.
Local prosecutors are now considering this case for prosecution. The investigation is ongoing and
final results will be reported in a subsequent semiannual report.

Theft of Program Funds (OIG Report of Investigation 02-028)
The Office of Inspector General is investigating an allegation reported by Corporation management
that an executive director of a grant recipient was diverting Corporation program funds to cover
personal expenditures and business expenses unrelated to program operations. The investigation
found evidence that the executive director and the director’s spouse had diverted a significant amount
of Corporation funds. The U.S. Department of Justice has accepted this investigation and is pursuing
criminal prosecution. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.

Theft of Program Funds (OIG Report of Investigation 03-018)
The Office of Inspector General is investigating an allegation reported by a Corporation State Office
that a former bookkeeper at a program embezzled a significant amount of program funds, a small
portion of which were Foster Grandparent Program funds. Local law enforcement and prosecutors
are pursuing prosecution. The investigation is ongoing and final results will be reported in a
subsequent semiannual report.

Fraudulent Receipt of VISTA Stipend (OIG Report of Investigation 03-040)
The Office of Inspector General is investigating an allegation reported by a Corporation State Office
that an AmeriCorps*VISTA member left the program but continued to receive her stipend, allowing
her to collect a significant amount of Corporation funds to which she was not entitled. The
investigation found that the program failed to verify member attendance and also failed to provide
written documentation of member attendance in their biweekly reports. The investigation is ongoing
and final results will be reported in a subsequent semiannual report.

Misuse of Education Award (OIG Report of Investigation 03-042)
The Office of Inspector General is investigating an allegation reported by Corporation management
that a former AmeriCorps member used her education award, properly paid to the member’s school
account, to purchase textbooks and school supplies that she subsequently sold to another student.
The investigation found that the former member could use the education award deposited in her
school account to purchase any item at the campus bookstore. The investigation is ongoing and final
results will be reported in a subsequent semiannual report.

April 1, 2003 – September 30, 2003                                                                     16
                                                                 Investigations Section
Allegations of Improper Grant Award Procedures (OIG Report of Investigation 03-041)
The Office of Inspector General is investigating allegations reported by a nonprofit organization that
its 2002 competitive grant application was denied due to favoritism or improper Corporation grant
award procedures. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.

Allegations of Fraudulent Time Sheets (OIG Reports of Investigation 03-033, 03-038, and 03-
039)
The Office of Inspector General is investigating allegations reported by a former AmeriCorps*VISTA
member that AmeriCorps members at the same program had been falsifying their time sheets. The
investigation found that one AmeriCorps member had left the program without completing his time
sheets but received no credit for service hours on these time sheets. The remaining allegations are
still being investigated and final results will be reported in a subsequent semiannual report.

Examination of Gift Fund Use (OIG Report of Investigation 03-034)
The Office of Inspector General is investigating allegations reported by a confidential source that
improper payments may have been made to a Corporation contractor. The investigation found that
the payments were made with monies from the Corporation’s Gift Fund. The contractor’s documents
did not appear to be improper, but the investigation did uncover questions about the manner in which
the Gift Fund was being managed. Information obtained in this investigation was provided to the OIG
audit section, which is conducting a financial and compliance audit of the Gift Fund.

Embezzlement of Program Funds (OIG Report of Investigation 03-026)
The Office of Inspector General is investigating allegations reported by a State commission that a
former program employee and two accomplices embezzled a large sum of money from a program, a
small portion of which were AmeriCorps funds. An investigation by local law enforcement and the
Federal Bureau of Investigation continues. The investigation is ongoing and final results will be
reported in a subsequent semiannual report.

AmeriCorps Member Submits Fraudulent Time Sheets
(OIG Report of Investigation 03-005)
The Office of Inspector General is investigating allegations reported by a State commission that a
former AmeriCorps member falsified his time sheets and forged his supervisor’s signatures on the
documents. The former member admitted forging the signatures and offered to repay the program the
$1,692.85 that he wrongfully received as a result of the fraudulent time sheets. Local prosecutors are
pursuing prosecution after the U.S. Department of Justice declined to pursue the case because of the
low dollar amount involved. The former member has been indicted, and a warrant was issued for his
arrest after he failed to appear at his arraignment. The investigation is ongoing and final results will be
reported in a subsequent semiannual report.

Allegations of Fraud (OIG Report of Investigation 02-007)
The Office of Inspector General is investigating allegations reported by a State commission that a
program executive director and the chief finance officer used program funds for their personal use.
The investigation found evidence supporting this allegation. Initially, the Federal Bureau of
Investigation was the lead investigative agency but, due to other commitments, was unable to pursue
this matter fully. The U.S. Department of Justice has since declined to prosecute this matter in favor
of local prosecution. The investigation is ongoing and final results will be reported in a subsequent
semiannual report.




April 1, 2003 – September 30, 2003                                                                     17
 Review Of Legislation And Regulations
 Section 4(a) of the Inspector General Act directs the Office of Inspector General to review and make
 recommendations about existing and proposed legislation and regulations relating to the
 Corporation’s programs and operations. The OIG reviews legislation and regulations to determine
 their impact on the economy and efficiency of the Corporation’s administration of its programs and
 operations. The OIG also reviews and makes recommendations on the impact that legislation and
 regulations may have on efforts to prevent and detect fraud and abuse in Corporation programs and
 operations. The OIG draws on its audit and investigation experience as the basis for its comments.

 During this reporting period, the OIG reviewed several pieces of legislation related to the Corporation.
 These include: 1) the Strengthen AmeriCorps Program Act, 42 U.S.C. § 12605, a law that codifies the
 Corporation’s accounting procedures with respect to the National Service Trust; 2) the Call to Service
 Act, S. 1274, a bill introduced in the Senate to reauthorize Corporation programs, and amend the
 National and Community Service Trust Act of 1993; and 3) the fiscal year 2004 appropriations bills
 pending in the House and the Senate, H.R. 2681 and S. 1584, which include provisions setting the
 amounts and conditions for use of funds for the Corporation and the OIG.


The Strengthen AmeriCorps Program Act
 The Strengthen AmeriCorps Program Act, enacted July 3, 2003, amends the National Community
 Service Trust Act of 1993 (NCSTA) by establishing an accounting procedure that specifies when, and
 in what amount, the Corporation should record an AmeriCorps participant’s education award as a
 liability against the National Service Trust. Conflicting legal opinions had been issued by the
 Corporation’s Office of General Counsel, the U.S. General Accounting Office, and the Office of
 Management and Budget concerning how this liability should be recorded. The Office of Inspector
 General concurred that this legislation was a necessary and rational response to resolve this matter.
 The new Act specifies an accounting formula that the Corporation should use to set aside funds for
 education awards. If properly implemented, the Act ensures that an adequate reserve exists to cover
 future payments of education awards earned by AmeriCorps participants.


The Call to Service Act
 The Office of Inspector General reviewed S. 1274, the Call to Service Act, introduced in the Senate
 on June 17, 2003. The proposed Act would reauthorize the activities of the Corporation and amend
 sections of the NCSTA. The Corporation’s enabling legislation authorized operations through 1996.
 Since that time, the Corporation has operated on one-year extensions of budget authority.

 The Call to Service Act would revise, repeal, or add certain sections to the NCSTA. The bill contains
 laudable improvements to the NCSTA, such as providing standards in the areas of grantee
 accountability, performance, and sustainability. However, several provisions of the bill could
 adversely impact the economy and efficiency of certain Corporation programs, and the OIG’s ability to
 prevent and detect fraud and abuse.

 One such provision, Section 1308 of the proposed measure, would repeal Section 130(e)(2) of the
 NCSTA. Section 130(e)(2) currently requires State commissions to assure the Corporation that “all
 assistance provided [under the National Service Trust programs] will be used to support national
 service programs that were selected by the State on a competitive basis.” In our view, requiring State
 commissions to solicit subgrants through competition ensures that Federal funds will go to the best
 projects in each State at the least cost to the Federal government. Requiring open competition also
 discourages making subgrant selections based on favoritism or personal contacts. The Office of
 Inspector General therefore recommends retention of Section 130(e)(2) of the NCSTA.



 April 1, 2003 – September 30, 2003                                                                   18
                                 Review Of Legislation And Regulations
 Another provision of the proposed bill that gives cause for concern is Section 1309, which would
 repeal Section 133(d)(4) of the NCSTA. Section 133(d)(4) currently requires the Corporation to
 consider the recommendations of “a panel of experts” for AmeriCorps grant proposals in excess of
 $250,000. Such panels, in our view, provide valuable advice and insight concerning the value,
 viability and sustainability of a proposed grant project. Furthermore, Congress has indicated its
 support for these panels in the last three fiscal year appropriation acts by stating that “to the
 maximum extent feasible” funds appropriated under the AmeriCorps program “shall be provided in a
 manner consistent with recommendations of peer review panels in order to ensure that priority is
 given to programs that demonstrate quality, innovation, replicability, and sustainability.” Accordingly,
 the OIG recommends retention of Section 133(d)(4).

 The Office of Inspector General is also concerned with Section 1405 of the proposed bill. This
 provision could expose the Corporation’s National Service Trust to fraud and abuse. The proposed
 section authorizes the Corporation to disburse funds from the National Service Trust directly to a
 disabled individual or family member who provides a certification that they: 1) are entitled or eligible to
 receive certain Federal disability benefits listed in the section; and, 2) will use the funds received from
 the Corporation to pay for education, training, or work-related activities. In our view, disbursing
 Federal funds based on an applicant’s self-certification that they are eligible for the program and will
 use the funds for the stated purpose, lacks the controls necessary to prevent fraud or abuse. The
 Office of Inspector General recommends that the section language be revised to require disabled
 individuals, or their family members, to be a recipient of Federal disability benefits. The Office of
 Inspector General also recommends that the section language be revised to require the Corporation
 to disburse funds only to statutorily defined organizations that certify a recipient’s enrollment in their
 program.


Appropriations
 The Office of Inspector General also reviewed the Corporation and OIG’s fiscal year 2004
 appropriations bills and committee reports that were introduced in the House and Senate. Our review
 focused on the additional OIG requirements proposed by this legislation. Among the items contained
 in the Senate’s proposed bill, S. 1584, are requirements that the OIG conduct random audits of
 AmeriCorps program grantees, and debar and obtain reimbursement of funds from AmeriCorps
 grantees that have committed “substantial violations” of the requirements of the AmeriCorps
 programs. The Office of Inspector General’s current practice is to conduct audits based on
 assessments of risk rather than in an indiscriminate order. The Office of Inspector General has
 communicated this practice to the Senate Appropriations Committee. With respect to the debarment
 and reimbursement authority, the OIG has suggested that the language be changed to reflect that the
 OIG make recommendations concerning debarment and reimbursement, but the Corporation, as
 grant manager, should remain the entity that administers the debarment program. This language
 would be consistent with the standard practice for debarment and reimbursement throughout the
 Federal government.




 April 1, 2003 – September 30, 2003                                                                     19
 Tables
Inspector General Act Reporting Requirements
 This table cross-references the reporting requirements prescribed by the Inspector General Act of
 1978, as amended, to the specific pages in the report where they are addressed.



     Section                                Requirement                               Page
 4 (a)(2)            Review of legislation and regulations                             18

 5 (a)(1)            Significant problems, abuses, and deficiencies related to      Throughout
                     the administration of Corporation programs and operations

 5 (a)(2)            Recommendations with respect to significant problems,          Throughout
                     abuses, and deficiencies found in the administration of
                     Corporation programs and operations

 5 (a)(3)            Prior significant recommendations on which corrective             24
                     action has not been completed

 5 (a)(4)            Matters referred to prosecutorial authorities                     11

 5 (a)(5)            Summary of instances where information was refused             None this
                                                                                     period

 5 (a)(6)            List of audit reports by subject matter showing dollar value       5
                     of questioned costs and recommendations that funds be
                     put to better use

 5 (a)(7)            Summary of significant reports                                 Throughout

 5 (a)(8)            Statistical table showing number of reports and dollar value      21
                     of questioned costs

 5 (a)(9)            Statistical table showing number of reports and dollar value      22
                     of recommendations that funds be put to better use

 5 (a)(10)           Summary of each audit issued before this reporting period         23
                     for which no management decision was made by end of
                     reporting period

 5 (a)(11)           Significant revised management decisions                       None this
                                                                                     period

 5 (a)(12)           Significant management decisions with which the Inspector      None this
                     General disagrees                                               period




 April 1, 2003 – September 30, 2003                                                              20
                                                                                 Tables

                              Reports With Questioned Costs

                                                                     Federal Costs

                      Report Category                  Number   Questioned Unsupported

                                                                    (Dollars in thousands)


A. Reports for which no management decision had been     13        $30,641            $18,990
   made by the commencement of the reporting period

B. Reports issued during the reporting period            5            2,337              1,882

C. Total Reports (A + B)                                 18         32,978             20,872

D. Reports for which a management decision was made      5
   during the reporting period

   i. Value of disallowed costs                                         213                  85

   ii Value of costs not disallowed                     ___           8,112              2,205

E. Reports for which no management decision had been
   made by the end of the reporting period (C - D)       13        $24,653            $18,582


F. Reports with questioned costs for which no            9         $22,319            $16,699
   management decision was made within six months of
   issuance




April 1, 2003 – September 30, 2003                                                           21
                                                                               Tables


           Reports With Recommendations That Funds Be Put To Better Use

             Report Category                          Number       Dollar Value



                                                               (Dollars in thousands)

 A.   Reports for which no management decision          1             $1,545
      had been made by the commencement of the
      reporting period

 B.   Reports issued during the reporting period        1              $119

 C. Reports for which a management decision was
    made during the reporting period


      i      Value of recommendations agreed to by      0               $0
             management


      ii     Value of recommendations not agreed to     0               $0
             by management


 D. Reports for which no management decision            2             $1,664
    had been made by the end of the reporting
    period


 E.   Reports for which no management decision          1             $1,545
      was made within six months of issuance




April 1, 2003 – September 30, 2003                                                      22
                                                                                              Tables


             Summary Of Audits With Overdue Management Decisions
                                                        Federal        Mgmt.          Status as of
  Report                                                Dollars       Decision       September 30,
 Number                       Title                   Questioned        Due*               2003
   02-10     Incurred-Cost Audit of Grants Awarded     $5,587,955     10/15/02 A Proposed Management
             to the Kentucky Commission on                                      Decision has not been
             Community Volunteerism and Service                                    provided to OIG


   02-11     Incurred-Cost Audit of Grants Awarded      7,903,629     08/20/02 A Proposed Management
             to the Missouri Community Service                                  Decision has not been
             Commission                                                            provided to OIG

   02-14     Incurred-Cost Audit of Grants Awarded       308,842      03/31/03 A Proposed Management
             to the Michigan Community Service                                  Decision has not been
             Commission                                                            provided to OIG

   02-17     Audit of Corporation for National and      3,540,540     03/31/03 A Proposed Management
             Community Service Grants Awarded to                                Decision has not been
             New Jersey Commission on National                                     provided to OIG
             and Community Service


   02-20     Incurred-Cost Audit of Grants Awarded      2,979,921     01/29/03 A Proposed Management
             to the New Hampshire Commission on                                 Decision has not been
             National and Community Service                                        provided to OIG

   02-21     Incurred-Cost Audit of Grants Awarded       780,999      03/31/03 A Proposed Management
             to the Alabama Governor's Office on                                Decision has not been
             National and Community Service                                        provided to OIG


   03-03     Incurred-Cost Audit of Grants Awarded      1,020,126     09/29/03 A Proposed Management
             to the Indiana Commission for                                      Decision has not been
             Community Service and Volunteerism                                    provided to OIG

   03-13     Interim Audit of Costs Claimed by           91,760       08/11/03 A Proposed Management
             Parents as Teachers National Center,                               Decision has not been
             Inc. Under Grant Agreement No.                                        provided to OIG
             01SPHMO004

   03-14     Audit of Costs Claimed by The Navajo        105,177      09/28/03 A Proposed Management
             Nation Under Grant No. 339W023-21                                  Decision has not been
             Foster Grandparent Program                                            provided to OIG
                              Total                   $22,318,949


*Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final management
decision must be made within six months of the final report’s issuance and corrective actions must be
completed within one year.




April 1, 2003 – September 30, 2003                                                                        23
                                                                                      Tables


      Reports Described In Prior Semiannual Reports Without Final Action

    Report                                                            Date         Final Action
    Number                       Title                               Issued            Due*
     00-24 Pre-Audit Survey Report of the Alaska State              08/08/00         08/08/01
           Community Service Commission

      01-31   Report on the Review of the Corporation for           07/09/01         07/09/02
              National and Community Service National Direct
              Grant Application Review Process

      02-03   Audit of Corporation for National and Community       12/27/01         12/27/02
              Service Grant Number 97LHEDC001 to American
              Association of Community Colleges

      02-10   Incurred-Cost Audit of Grants Awarded to the          04/18/02         04/18/03
              Kentucky Commission on Community Volunteerism
              and Service

      02-11   Incurred-Cost Audit of Grants Awarded to the          02/21/02         02/21/03
              Missouri Community Service Commission

      02-20   Incurred-Cost Audit of Grants Awarded to the New      08/02/02         08/02/03
              Hampshire Commission on National and
              Community Service

      02-14   Incurred-Cost Audit of Grants Awarded to the          09/30/02         09/30/03
              Michigan Community Service Commission

      02-16   Audit of Corporation for National and Community       09/26/02         09/26/03
              Service Grants Awarded to Alaska State
              Community Service Commission

      02-17   Audit of Corporation for National and Community       09/30/02         09/30/03
              Service Grants Awarded to New Jersey
              Commission on National and Community Service

      02-21   Incurred-Cost Audit of Grants Awarded to the          09/30/02         09/30/03
              Alabama Governor's Office on National and
              Community Service

*Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
management decision must be made within six months of the final report’s issuance and corrective
actions must be completed within one year.




April 1, 2003 – September 30, 2003                                                                 24
Fiscal Year 2003 Performance Information
Strategic Goals
As part of the Office of Inspector General’s ongoing effort to carry out its mission, the OIG has
established the following goals for its operation:

 Strategic Goal 1
    Identify opportunities for increased economy and efficiency in agency operations; assist
    management by identifying, recommending, and developing appropriate management reforms.


 Strategic Goal 2
    Protect the integrity of the Corporation’s programs, operations, and financial management by
    identifying and mitigating existing risks or emerging vulnerabilities that may result from changes in
    the Corporation’s operations, from changing legal and administrative requirements, or from other
    changes in the environment in which the Corporation operates.


 Strategic Goal 3
    Carry out the intent of the Government Performance and Results Act by providing the Corporation
    with objective assessments of the integrity of the systems that it uses to compile performance
    information and its reliability, and by changing the focus of OIG audits and other services to focus
    more on management performance and programmatic outcomes.


 Strategic Goal 4
    Improve the quality and delivery of OIG work products.


On the following pages, the Office of Inspector General analyzes how the work accomplished this
year has furthered these strategic goals.




April 1, 2003 – September 30, 2003                                                                    25
                                             Audit Performance Information

                         Quantitative Audit Performance Measures
                                                                        FISCAL YEAR
                                                               2002         2003        2003
                                                               Actual       Goal        Actual
Number of Reports Issued                                        28           20          19

Number of Reports Linked to                                      6             6          5
Improving Corporation Management
(OIG Strategic Goal 1)

Number of Recommendations Linked to Goal 1*                      33            -         56

Number of Reports Linked to                                      28           17         19
Protecting the Integrity of Programs,
Operations, and Financial Management
(OIG Strategic Goal 2)

Number of Recommendations Linked to Goal 2
                                    …to Corporation             50             -         62
                                    …to Grantees                131            -         78
                                    …to Contractors              0             -          0

Number of Reports Linked to Carrying Out The                     2             2          2
Intent of Government Performance Results Act
(OIG Strategic Goal 3)

Number of Recommendations Linked to Goal 3                       8             -         12

Total Number of Audit Recommendations                           181            -         140

Percent of Recommendations Accepted by Corporation              93%          90%        93%



*The number of recommendations that will be included in a report cannot be predicted.




April 1, 2003 – September 30, 2003                                                               26
                                            Audit Performance Information


                                 Audit Performance Statistics*

                                                                           Fiscal Year
                                                                 2001         2002        2003

 Number of Audit Reports                                          28           28          19

 Number of Testimonies                                            3             0           1

 Number of Reports Requested by                                   8             6           4
 Congressional Staff

 Questioned Costs (dollars in thousands)                        $2,984       $23,369     $3,585



 Recommendations That Funds Be Put To                            $56         $1,607       $119
 Better Use (dollars in thousands)


 Cost per Audit Hour
           OIG Staff                                             $65           $52         $53
           Contracted Service                                    $99           $96         $85

 Average Length of Audit                                       187 days     215 days     202 days




*In accordance with Strategic Goal 4, which is to improve the quality and delivery of OIG services,
reports, and other work products, the OIG monitors the number of audit reports issued annually and
the time required to complete an audit.




April 1, 2003 – September 30, 2003                                                               27
                                Investigations Performance Information

The basic mission of the OIG investigative section is to lawfully determine as many of the facts as
possible surrounding a given incident. The incident under review may include allegations of criminal
activity, allegations of non-criminal activity, or allegations that include both criminal activity and non-
criminal activity. Whether an allegation is developed reactively or proactively has no impact on the
OIG’s basic mission to determine the facts surrounding an incident.

All matters involving evidence of Federal criminal violations are referred to the U.S. Department of
Justice for prosecution. This does not mean that all allegations of Federal criminal violations are
referred; only those with evidence of a Federal criminal violation are referred, with some exceptions.
For example, all allegations of significant fraud and all allegations against certain senior government
officials are referred to the Department of Justice without regard to the amount of evidence available
at the time the allegations are received. Many of the criminal matters investigated by OIG involving
Corporation programs and operations are declined for prosecution by the Department of Justice
because of the low dollar amounts involved. Some of these referrals are accepted by the Department
of Justice Civil Division for enforcement; others are accepted for prosecution by State or local
prosecutors.

Non-criminal matters and those matters declined for prosecution or civil enforcement by the
Department of Justice (or State prosecutors) are often referred to Corporation management for
administrative action. Administrative action might involve removal or suspension of an employee.
Administrative action could also involve modifying or refining a process or system that our
investigation identified as needing improvement. The OIG usually requests management to provide a
description of what, if any, administrative action was taken as a result of the referral.

The Office of Inspector General sometimes finds that certain matters, criminal and non-criminal, did
not occur, did not occur as alleged, or were not within our purview. Each matter requires some
degree of preliminary inquiry to determine the veracity of the allegation. The table on the following
page presents statistics on the OIG’s investigative workload for fiscal years 1999 through 2003.




April 1, 2003 – September 30, 2003                                                                      28
                                      Investigations Performance Information

                               Investigations Performance Information
Fiscal Year                                          1999             2000           2001          2002              2003
                                                                                          5
Investigative Actions Opened                         46               51             95             40                42


Investigative Actions Resolved and                   29               47             95             40                30
Closed
Average Monthly Caseload                             25               30             35             24                26


Investigative Matters Resolved                       48               37             29             37                42
Without Opening a Separate
Investigative Action
Referrals for Prosecution                            12               14             16             10                 9

Investigative Recoveries6                       $142,634         $308,939       $55,961       $1,206,057         $123,988

Cost Avoidance7                                 --               --             --            --                 $158,0388

Administrative or Management                         10                4              8             25                239
Action Taken

5
  Forty-five of the 95 investigative actions opened during fiscal 2001 were opened as a direct result of a proactive OIG review
of Corporation employees’ use of the government travel charge card. These 45 actions documented the investigation of
suspected employee abuse of government travel charge cards, namely using the cards for personal benefit in violation of
Corporation policy, Federal regulations, and the Standards of Ethical Conduct for Employees of the Executive Branch.
6
  Includes money received by the Corporation or other government agencies as a result of OIG investigations, including joint
investigations with another OIG, Federal, or State investigative element.
7
  Cost avoidance was not calculated until fiscal 2003. When OIG investigative action identifies a systemic practice that has
subsequently been stopped or modified due to some type of OIG investigative interdiction, any clear and unmistakable savings
to the Corporation are reported as a cost avoidance.
8
  Investigative findings allowed the Corporation to avoid paying $122,070 in liquidated damages for violating the Fair Labor
Standards Act. The cost avoidance total for fiscal year 2003 also includes three other investigations that resulted in cost
avoidance.
9
  This figure includes the Corporation’s compensation of 20 employees for unpaid overtime.




April 1, 2003 – September 30, 2003                                                                                          29
             CORPORATION FOR NATIONAL AND
                  COMMUNITY SERVICE

     OFFICE OF INSPECTOR GENERAL

                               Hotline


                                             We Want You to
                                              Report Fraud,
                                            Waste and Abuse!



                        ♦   All information is confidential.

                        ♦   You may remain anonymous.


                1-800-452-8210
Contact us by e-mail:                                    Visit our web page:
hotline@cncsoig.gov                                       www.cncsig.gov


                                    Or write:

                              OIG HOTLINE
    Corporation for National and Community Service
        1201 New York Avenue NW., Suite 830
                 Washington, DC 20525
                                                                               30
